                   AUDIT REPORT
                        12-19




Enhanced Architecture Maturity Could Better Guide GPO’s
                    Transformation

                  September 28, 2012
Date
September 28, 2012
To
Chief Information Officer
From
Inspector General
Subject
Audit Report – Enhanced Architecture Maturity Could Better Guide GPO’s
Transformation
Report Number 12-19

Enclosed please find the subject final report. Please refer to the “Results in Brief” for
the overall audit results. Our evaluation of your response has been incorporated
into the body of the report. We consider management’s comments responsive to the
recommendations. The recommendations are resolved and will remain open
pending our verification of the completion of the agreed upon corrective actions.

We appreciate the courtesies extended to the audit staff. If you have any questions
or comments about this report, please do not hesitate to contact me at
(202) 512-0039.



Michael A. Raponi
Inspector General

Enclosure

cc:
Acting Public Printer
Assistant Public Printer, Operations
General Counsel
Contents

Introduction ............................................................................................................. 1

Results in Brief ....................................................................................................... 2

Background ............................................................................................................ 5

Results and Recommendations .............................................................................. 9

Appendix A – Assessment of the GPO’s Efforts against GAO’s Framework
(Enterprise-Wide) .................................................................................................... 19

Appendix B – Objectives, Scope, and Methodology ............................................... 31

Appendix C – Management’s Response ................................................................ 33

Appendix D– Status of Recommendations ............................................................. 39

Appendix E – Report Distribution ............................................................................ 40

Major Contributors .................................................................................................. 41
                        Office of Inspector General

Report Number 12-19                                     September 28, 2012


    Enhanced Architecture Maturity Could Better Guide GPO’s
                        Transformation

Introduction

The Office of Inspector General (OIG) initiated an audit to determine to what
extent GPO has assurance that its Enterprise Architecture is used to guide and
constrain ongoing development and support of GPO’s strategic transformation.

GPO defines the transformation process as a move from a print centric to a
content centric model and includes content management systems, business
information systems, and digital production systems.

Throughout its 150-year history, the GPO has transformed the way it publishes
government information to keep pace with the technology of the time. The trend
towards producing government documents through electronic publishing
technology and providing public government documents through the Internet has
affected all of GPO's programs, reducing the production, procurement, and sales
of printed products. These have historically provided GPO with a vital source of
revenue to supplement its annual budget. GPO is making strategic, operational,
and cultural changes to help ensure GPO stays relevant and efficient, and meets
its customers’ needs.

As the GPO undergoes this transformation, a key element is the use of
Enterprise Architecture. Enterprise Architecture is the “blueprint” for defining an
organization’s current (baseline) and desired (target) environment. Enterprise
Architecture is essential for evolving information systems, developing new
systems, and inserting emerging technologies that optimize mission value.

GPO reports that approximately 97 percent of all U.S. Government documents
are now born digital, published to the Web, and will never be printed by the
Federal Government. Internet and intranet search are the preferred methods for
obtaining information. GPO has determined it will utilize all available technology
to assist Federal agencies in disseminating information about their operations in
a fast, secure, and permanent manner.

GPO’s Enterprise Architecture is managed by the Enterprise Architecture
Program Office which is comprised of a Chief Architect who reports to the Chief
Information Officer (CIO), two dedicated full time staff members, and two
contractors. Under the Chief Technology Officer, GPO’s Office of Programs,
                                         1
Strategy and Technology is responsible for the management, ongoing
development, and support of Federal Digital System (FDsys).

We reviewed GAO’s Enterprise Architecture Management Maturity Framework,
which organizes architecture management best practices into seven stages of
maturity 1. This framework is based on A Practical Guide to Federal Enterprise
Architecture, published by the federal Chief Information Officer Council 2. We
interviewed the current and former Chief Architect and staff of the Enterprise
Architecture Program Office, and staff responsible for FDsys Enterprise
Architecture. We compared GAO’s framework with the ongoing efforts of GPO’s
Enterprise Architecture program.

We also compared GAO’s framework to FDsys architecture because GPO’s
Office of Programs, Strategy and Technology is responsible for the management,
ongoing development, and support of FDsys.

We performed our work at GPO headquarters in Washington, D.C., from July to
August 2012 and reviewed documents that were made available to us during that
period. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Our objective, scope and
methodology are detailed in Appendix B.

Results in Brief

Efforts to develop a fully mature Enterprise Architecture have been underway
since 2008. GPO has developed and implemented an Enterprise Architecture
policy, created the Enterprise Architecture Program Office, appointed a Chief
Architect, uses an automated tool that contains reference models to assist in
developing an Enterprise Architecture, and from 2008 to 2010 established an
Architect Review Board. In 2010, GPO performed a self assessment using
GAO’s framework and determined a maturity level of Stage 4 in the GAO
framework. The highest level of maturity is Stage 6. Stage 4 represents
completing and using an initial Enterprise Architecture version for targeted
results.

We compared GPO's progress with GAO’s framework. Based on both our audit
and GPO’s self assessment in 2010, GPO had not fully expanded and evolved
the Enterprise Architecture and its use for transformation and optimization.


1
  GAO, Information Technology: A Framework for Assessing and Improving Enterprise Architecture Management (Version 2.0),
GAO-10-846G (Washington, D.C.: August 2010).
2
  CIO Council, A Practical Guide to Federal Enterprise Architecture, Version 1.0 (February 2001).

                                                             2
Currently, we believe the maturity of GPO’s Enterprise Architecture is less than
what was reported in GPO’s self assessment in 2010.

We found similar results with the architecture maturity level of FDsys which has
not yet evolved to support transformation or optimization. In fiscal year 2012,
FDsys was funded for development at approximately $4 million.

Without a matured Enterprise Architecture, GPO assumes the risk that it will
invest in IT that is duplicative, not well integrated, costly, not supportive of the
agency's strategic goals and mission, or not responsive to emerging
technologies. Once it is completed, GPO will have a better vision of its
transformation. For example, the “as-is” and “to-be” views of the performance,
business, data, services, technology, and security architectures, as well as well-
defined plans for transitioning from the “as-is” to the “to-be” views are achieved.
Also, GPO would be focused on continuously improving the quality of its suite of
Enterprise Architecture artifacts and the people, processes, and tools used to
govern their development, maintenance, and use.

Since 2010, we believe progress was slowed, in large part, because of the
collapse of the Architect Review Board in 2010. We were told as board members
were reassigned or left GPO, replacements were not identified and the board
eventually discontinued its efforts and has not convened since the collapse noted
above.

Recommendations
To enhance the utility and maturity of GPO’s Enterprise Architecture, we
recommend the:

   1. CIO identify, develop, and implement a framework to evolve GPO’s
      Enterprise Architecture and its use to support GPO’s transformation and
      optimization.

   2. CIO reevaluate, modify if necessary, GPO Directive 705.31, “GPO
      Enterprise Architecture Policy” and reestablish and convene the Architect
      Review Board.

   3. Chief Technology Officer coordinate with the CIO to ensure the FDsys
      architecture is aligned with GPO’s Enterprise Architecture.

Management’s Response
The CIO concurs with the recommendations. GPO will focus on complying with
the spirit of the GAO maturity model as authority allows. Directive 705.31 must
be updated to reflect a revised “right-sized” EA approach which takes into

                                          3
account cross-governmental EA best practices such as those set forth by GAO
and OMB’s Federal Enterprise Architecture Program Management Office but
does not stipulate full compliance.

Currently, FDsys technologies are aligned with the EA Technical Reference
Model. However, an improved coordination to achieve more detailed design
documentation would be helpful towards improving the baseline architectures.

The complete text of management’s response is in Appendix C.




                                       4
Background
Within the Federal government, numerous rules and regulations govern the
development and execution of IT policy. These guidelines have been established
to better manage strategic plans, enhance IT acquisition practices, justify IT
expenditures, measure IT performance, integrate new technologies, and manage
information resources. Below is an overview of such rules and regulations as
they pertain to Enterprise Architecture.

Overview of Select Federal Guidance and Legislation

In 1996, Congress enacted the Clinger-Cohen Act 3 to address longstanding
problems related to Federal IT management. In part, Clinger-Cohen requires
each agency’s CIO to develop, facilitate the implementation of, and maintain an
agency-wide Enterprise Architecture program that integrates agency business
processes with agency goals. Agencies Enterprise Architecture programs
establish baselines for as-is and target to-be architectures, transition plans for
affected agency management and investment decisions coordinated across
boards or committees.

The Federal CIO Council began developing the Federal Enterprise Architecture
Framework in accordance with the priorities enunciated in Clinger-Cohen. In
September 1999, the Federal CIO Council published the Federal Enterprise
Architecture Framework to provide Federal agencies with a common construct
for their architectures, and facilitate the coordination of system investments
among Federal agencies. A Federal Enterprise Architecture Framework model
describes an agency’s business, the data necessary to conduct the business,
applications to manage the data, technology to support the applications, and
security measures that ensure the protection of information resources.

OMB has issued guidance, OMB Circular A-130 4, which establishes policy for the
management of Federal information resources, and requires Federal agencies to
align their IT investments to their Enterprise Architecture. OMB Circular A-130
requires agencies to document and submit their initial Enterprise Architectures to
the OMB, as well as updates when significant changes occur. Agencies
Enterprise Architectures describe current and future plans and models as well as
providing a roadmap to enable agency operations support of associated
technology and processes. Such roadmaps include an agency's capital planning
and investment control processes, Enterprise Architecture planning processes,
and system life cycle methodologies.




3
  Public Law No. 104-106, Division E, February 10, 1996. The law, initially titled the Information Technology Management Reform
Act of 1996, was subsequently renamed the Clinger-Cohen Act of 1996 in P. L. 104-208, September 30, 1996.
4
  OMB, Management of Federal Information Resources, Circular No.A-130 (Nov. 28, 2000).

                                                               5
GPO Management Directive

GPO Directive 705.31, “GPO Enterprise Architecture Policy”, dated December 8,
2008, states that in its 2004 report, GAO recommended that GPO implement an
Enterprise Architecture as “an essential part of a successful organizational
transformation” and that GPO demonstrate its commitment to managing
Enterprise Architecture development and maintenance. The Enterprise
Architecture Program Office was established to serve the strategic and business
needs of the agency. To achieve these goals, the Enterprise Architecture
Program Office reports it is using cross governmental best practices set forth by
the GAO and OMB.

GPO Directive 705.31 establishes the Architecture Review Board (ARB). The
ARB:
     (1) ensures that the acquisition of information technology throughout the
     agency aligns with the agency’s Enterprise Architecture and strategic
     priorities;

      (2) provides oversight for the development of technology standards, and
      the interoperability requirements;

      (3) reviews and approves significant changes to the Enterprise
      Architecture;

      (4) reviews business and system initiatives for compliance with GPO
      Enterprise Architecture to support interoperability and data sharing and
      minimize redundancy;

      (5) provides guidance and assistance in the development, maintenance,
      and management of GPO’s Technical Reference Model;

      (6) directs Enterprise Architecture program reviews and milestone reviews
      of project deliverables and work products for Enterprise Architecture
      compliance as part of the SDLC process to: (a) ensure alignment with
      business and program management objectives, (b) verify that technical
      requirements are satisfied, (c) assess the viability of architectural designs,
      (d) promote component and data reuse, and (e) verify alignment with
      standards;

      (7) renders decisions and resolves Enterprise Architecture related issues
      as requested by the Configuration Control Board, IT project teams, and
      Project Management Office.;

CIO designates the Chief Architect or the CIO’s designee to chair the ARB.
Membership of this standing board includes Operational Managers from
Business Units, Support Organizations, Office of the CIO, and IT Security.

                                         6
Additional members are selected on an as-needed basis (i.e. subject matter
experts, project managers, etc.).

The GPO Directive references GAO’s “Information Technology: A Framework for
Assessing and Improving Enterprise Architecture Management” (April 2003).

Framework for Assessing and Improving Enterprise Architecture Management

GAO extends A Practical Guide to Federal Enterprise Architecture, published by
the CIO Council, by arranging the core elements in that guide into a matrix of
seven hierarchical stages and four critical success attributes.

In August 2010, GAO issued A Framework for Assessing and Improving
Enterprise Architecture Management, an update of a 2003 version. The GAO
Framework consists of 59 key framework elements, referred to as core elements.
A core element is a practice or condition that should be performed or met. The
GAO framework is made up of seven stages of management maturity, each of
which includes all the core elements that are resident in previous stages.

Prior Audits

We identified one report issued by the GAO that is relevant to this audit. In 2004,
GAO conducted a review 5 in response to both a mandate requiring GAO to
examine the state of printing and dissemination of public government information
and a congressional request that GAO conduct a general management review of
GPO focusing on the inevitable transformation of GPO’s.

In part, GAO concluded that GPO did not have an Enterprise Architecture at the
time. The CIO organization was in the process of documenting GPO’s business
processes and supporting IT architecture (the “as-is” enterprise architecture). In
doing this work, GPO was focusing on those business items of greater interest to
two sets of critical customers— the Congress and users of the Federal Register.
At the time, the CIO hired a manager to lead the effort who has significant
experience in the development and institutionalization of Enterprise Architecture
and related processes.

GAO recommend that GPO begin an effort to create and implement a
comprehensive plan for the development of an Enterprise Architecture that
addresses completion of GPO’s current or “as-is” architecture, development of a
target or “to-be” architecture, and development of a capital investment plan for
transitioning from the current to the target architecture.




5
    GAO, Actions to Strengthen and Sustain GPO's Transformation, GAO-04-830, (June 2004).

                                                                7
GPO’s Self Assessment

In 2010, GPO performed a self assessment using GAO’s framework. GPO
reported completing 40 core elements. The self assessment reveals GPO had
not fully expanded and evolved the Enterprise Architecture and its use for
transformation and achieved optimization. The self assessment results are
summarized below:

Stage 0: Creating Awareness.
   • Complete

Stage 1: Establishing Institutional Commitment and Direction.
   • Completed six of the eight applicable core elements.

Stage 2: Creating the Management Foundation for Enterprise Architecture
Development and Use.
   • Completed eight of the ten applicable core elements.

Stage 3: Developing Initial Enterprise Architecture Versions.
   • Completed 13 of the 13 applicable core elements.

Stage 4: Completing and Using an Initial Enterprise Architecture Version for
Targeted Results.
   • Completed eight of the nine applicable core elements.

Stage 5: Expanding and Evolving the Enterprise Architecture and Its Use for
Institutional Transformation.
    • Completed two of the six applicable core elements.

Stage 6: Continuously Improving the Enterprise Architecture and Its Use to
Achieve Corporate Optimization.
   • Completed three of the seven applicable core elements.




                                        8
Results and Recommendations

While senior managers are committed and have taken action to develop GPO’s
Enterprise Architecture, further effort is needed to reach a fully mature Enterprise
Architecture. Both GPO’s own self assessment in 2010 and our audit reveals
GPO had not fully expanded and evolved the Enterprise Architecture and its use
for transformation and optimization. Without a fully matured Enterprise
Architecture, GPO assumes the risk that it will invest in IT that is duplicative, not
well integrated, costly, not supportive of the agency's mission, or not responsive
to emerging technologies.

GAO’s framework identifies 59 core elements. We determined 53 core elements
apply to GPO.

Finding 1: Enterprise Architecture

We found that GPO completed or partially completed 13 of the 53 applicable core
elements. Since 2010, progress was slowed because of the collapse of the
Architect Review Board. As board members were reassigned or left GPO,
replacements were not identified and the board eventually discontinued its efforts
and has not convened since the collapse. We were told that the Architecture
Review Board is in the process of being reconvened as part of a three element
technology management approach that involves the interaction of the
Technology Configuration Control Board, the SIC, and a Technology Strategy
Board where Enterprise Architecture decisions will be made. The Technology
Configuration Control Board is currently in operation and has supported several
technology approval for the TRM, and passed several architectural review cases
to Enterprise Architecture Program Office in the past four months.

Without a matured Enterprise Architecture, GPO assumes the risk that it will
invest in IT that is duplicative, not well integrated, costly, not supportive of the
agency's strategic goals and mission, or not responsive to emerging
technologies. Once it is completed, GPO will have a better vision of its
transformation. For example,

   •   By completing Stage 5: “Expanding and Evolving the Enterprise
       Architecture and Its Use for Institutional Transformation” of the GAO
       framework, the “as-is” and “to-be” views of the performance, business,
       data, services, technology, and security architectures, as well as well-
       defined plans for transitioning from the “as-is” to the “to-be” views are
       achieved.

   •   By completing Stage 6: “Continuously Improving the Enterprise
       Architecture and Its Use to Achieve Corporate Optimization” of the GAO
       framework GPO would be focused on continuously improving the quality


                                           9
       of its suite of Enterprise Architecture products and the people, processes,
       and tools used to govern their development, maintenance, and use

Status of GPO's Progress toward Completing the Seven Stages of GAO’s
Framework

We used the criteria in the GAO framework to evaluate GPO’s progress in
developing an Enterprise Architecture. The seven stages we assessed are:

•   Stage 0: Creating Awareness. At this stage, either an organization does not
    have plans to develop and use an Enterprise Architecture or it has plans that
    do not demonstrate an awareness of the management discipline needed to
    successfully develop, maintain, and do not use an Enterprise Architecture.
    While Stage 0 organizations may have initiated some activity, their efforts are
    largely ad hoc and unstructured and lack the institutional leadership
    necessary for successful development, maintenance, and use as defined in
    Stage 1.

•   Stage 1: Establishing Institutional Commitment and Direction. At this stage,
    the organization grounds development and compliance in policy and
    recognizes it as a corporate asset by vesting ownership of the architecture
    with top executives lines of business owners and chief “X” officers (CXO) as
    members of a chartered architecture executive committee who are provided
    with knowledge and understanding of the architecture concepts and
    governance principles needed to lead and direct the effort.

•   Stage 2: Creating the Management Foundation for Enterprise Architecture
    Development and Use. At this stage, the organization establishes operational
    program office, including a corporate program office that is headed by the
    chief architect, who reports to the executive committee.

•   Stage 3: Developing Initial Enterprise Architecture Versions. At this stage,
    steps are taken to engage stakeholders in the process and implement human
    plans, to include hiring and training staff and acquiring contractor expertise.

•   Stage 4: Completing and Using an Initial Enterprise Architecture Version for
    Targeted Results. At this stage, an organization has developed a version of
    its corporate Enterprise Architecture that has been approved by the executive
    committee, to include “as-is” and “to-be” views of the performance, business,
    data, services, technology, and security architectures, as well as an initial
    version of a plan for transitioning from the “as-is” to the “to-be” views.

•   Stage 5: Expanding and Evolving the Enterprise Architecture and Its Use for
    Institutional Transformation. At this stage, the scope is extended to the entire
    organization, and it is supported by a full complement of segment and
    federation member architectures, all of which include “as-is” and “to-be” views

                                         10
    of the performance, business, data, services, technology, and security
    architectures, as well as well defined plans for transitioning from the “as-is” to
    the “to-be” views.

•   Stage 6: Continuously Improving the Enterprise Architecture and Its Use to
    Achieve Corporate Optimization. At this stage, an organization is focused on
    continuously improving the quality of its suite of products and the people,
    processes, and tools used to govern their development, maintenance, and
    use. By achieving this stage of maturity, the organization has established a
    truly enterprise-wide blueprint to inform both “board room” strategic planning
    and decision making and “on-the-ground” implementation of these changes
    through a range of capital investment and maintenance projects and other
    corporate initiatives.

With the exception of the first stage (Stage 0), to implement each of the seven
maturity stages of the GAO framework, GPO must complete four critical success
attributes: (1) demonstrate commitment, (2) provide the capability to meet the
commitment, (3) demonstrate satisfaction of commitment, and (4) verify
satisfaction of commitment.

Each attribute contains core elements that contribute to the effective
implementation and institutionalization of the critical success attribute.
Collectively, these attributes form the basis by which an organization can
institutionalize management of any given function or program. Collectively, these
attributes form the basis by which an organization can institutionalize the
management of any given function or program, such as Enterprise Architecture
management.

Table 1 below depicts our assessment of Attribute 1: Demonstrates Commitment.
These are the efforts and activities to show enterprise-wide commitment to
perform the function, initiative, or program by, for example, establishing policies,
providing resources, and involving organizational leaders. Our assessment
indicates if the core element is complete (yes), not addressed at the time of our
audit (no), and GPO was able to demonstrate some action was taken to address
the element (partial).




                                          11
Table 1: Assessment of the GPO’s Efforts against GAO’s Framework – Attribute 1
                    Stage 1:            Stage 2:           Stage 3:             Stage 4:             Stage 5:            Stage 6:
                 Establishing         Creating the       Developing          Completing          Expanding and        Continuously
                   Enterprise         management      initial Enterprise    and using an           evolving the       improving the
                 Architecture        foundation for     Architecture              initial           Enterprise          Enterprise
  Attribute       institutional        Enterprise          versions           Enterprise        Architecture and       Architecture
                 commitment           Architecture                           Architecture           its use for       and its use to
                 and direction        development                             version for          institutional         achieve
                                        and use                                 targeted         transformation         corporate
                                                                                 results                               optimization
                (1) Written and      (9) Enterprise   (19) Organization    (33) Executive       (44) Organization   (53) Enterprise
                approved             Architecture     business owner       committee has        head has            Architecture is
                organization         budgetary        and CXO              approved the         approved current    used by
                policy exists for    needs are        representatives      initial version of   version of the      executive
                Enterprise           justified and    are actively         corporate            corporate           leadership to
                Architecture         funded.          engaged in           Enterprise           Enterprise          inform
                development,                          architecture         Architecture         Architecture.       organization
                maintenance,                          development.                                                  strategic
                and use                                                                                             planning and
                                                                                                                    policy
                                                                                                                    formulation.
                      Yes                  No                Yes                  No                   No                  No
                (2) Executive                                              (34) Key             (45) Organization
                committee                                                  stakeholders         component heads
                representing the                                           have approved        or segment
 Attribute 1:   enterprise                                                 the current          owners have
Demonstrates    exists and is                                              version of           approved current
Commitment      responsible and                                            subordinate          version of their
                accountable for                                            architectures.       respective
                Enterprise                                                                      subordinate
                Architecture.                                                                   architectures.
                       No                                                        N/A                   No
                (3) Executive                                              (35) Enterprise
                committee is                                               Architecture is
                taking proactive                                           integral to the
                steps to                                                   execution of
                address                                                    other
                Enterprise                                                 institutional
                Architecture                                               management
                cultural barriers.                                         disciplines.

                       No                                                        Yes



Table 2 below depicts our assessment of Attribute 2: Provides Capability to Meet
Commitment. These are the efforts and activities to put in place the capability
(people, processes, and tools) needed to execute the function, initiative, or
program.




                                                              12
Table 2: Assessment of the GPO’s Efforts against GAO’s Framework – Attribute 2
                   Stage 1:            Stage 2:              Stage 3:          Stage 4:            Stage 5:            Stage 6:
                Establishing         Creating the          Developing         Completing      Expanding and         Continuously
                  Enterprise         management         initial Enterprise   and using an       evolving the        improving the
                Architecture        foundation for        Architecture           initial         Enterprise           Enterprise
                 institutional        Enterprise             versions         Enterprise     Architecture and      Architecture and
  Attribute
                commitment           Architecture                            Architecture        its use for          its use to
                and direction        development                              version for       institutional          achieve
                                       and use                                 targeted       transformation          corporate
                                                                                results                              optimization

                (4) Executive       (10) Enterprise     (20) Enterprise      (36) Program    (46) Integrated       (54) Enterprise
                committee           Architecture        Architecture         office human    repository tools      Architecture
                members are         program             human capital        capital needs   and common            human capital
                trained in          office(s) exists.   plans are being      are met.        Enterprise            capabilities are
                Enterprise                              implemented.                         Architecture          continuously
                Architecture                                                                 framework and         improved.
                principles and                                                               methodology are
                concepts.                                                                    used across the
                                                                                             enterprise.
                       No                  Yes                  No                 No                No                    No
                (5) Chief           (11) Key            (21) Program                         (47) Corporate and    (55) Enterprise
                architect exists.   program office      office contractor                    subordinate           Architecture
                                    leadership          support needs                        architecture          methodologies
                                    positions are       are being met.                       program offices       and tools are
                                    filled.                                                  operate as a single   continuously
                                                                                             virtual office that   improved.
                                                                                             shares resources
                                                                                             enterprise-wide.
                      Yes                  No                   No                                  N/A                    No
                (7) Enterprise      (12) Program        (22) Program                                               (56) Enterprise
                Architecture        office human        office staff are                                           Architecture
                framework(s) is     capital plans       trained in                                                 management
                adopted.            exist.              Enterprise                                                 processes are
                                                        Architecture                                               continuously
                                                        framework,                                                 improved and
                                                        methodology,                                               reflect the results
                                                        and tools.                                                 of external
 Attribute 2:
                                                                                                                   assessments.
  Provides
Capability to         Yes                  No                   No                                                         No
    Meet                            (13) Enterprise     (23)
Commitment                          Architecture        Methodologies
                                    development         and tools exist to
                                    and                 determine
                                    maintenance         investment
                                    methodology         compliance with
                                    exists.             corporate and
                                                        subordinate
                                                        architectures.
                                           No                  Yes
                                    (14) Automated      (24)
                                    Enterprise          Methodologies
                                    Architecture        and tools exist to
                                    tools exist.        determine
                                                        subordinate
                                                        architecture
                                                        alignment with
                                                        the corporate
                                                        Enterprise
                                                        Architecture.
                                           No                   N/A
                                                        (25) Enterprise
                                                        Architecture -
                                                        related risks are
                                                        proactively
                                                        identified,
                                                        reported, and
                                                        mitigated.
                                                               Partial




                                                                   13
Table 3 below depicts our assessment of Attribute 3: Demonstrates Satisfaction
of Commitment. These are the products, results, and outcomes that
demonstrate that the function, initiative, or program is being performed.
Table 3: Assessment of the GPO’s Efforts against GAO’s Framework – Attribute 3
                     Stage 1:          Stage 2:             Stage 3:              Stage 4:              Stage 5:            Stage 6:
                  Establishing       Creating the         Developing             Completing        Expanding and         Continuously
                    Enterprise       management        initial Enterprise       and using an         evolving the        improving the
                  Architecture      foundation for       Architecture              initial            Enterprise           Enterprise
  Attribute        institutional      Enterprise            versions             Enterprise       Architecture and        Architecture
                  commitment         Architecture                               Architecture          its use for        and its use to
                  and direction      development                                 version for         institutional          achieve
                                       and use                                targeted results     transformation          corporate
                                                                                                                          optimization
                  (6) Enterprise    (15) Enterprise    (26) Initial           (37) Initial        (48) Corporate        (57) Enterprise
                  Architecture      Architecture       versions of            versions of         Enterprise            Architecture
                  purpose is        program            corporate “as-is”      corporate “as-is”   Architecture and      products are
                  clearly stated.   management         and “to-be”            and “to-be”         sequencing plan       continuously
                                    plan exists and    Enterprise             Enterprise          are enterprise-       improved and
                                    reflects           Architecture and       Architecture and    wide in scope.        updated.
                                    relationships      sequencing plan        sequencing plan
                                    with other         are being              exist.
                                    management         developed.
                                    disciplines.
                        No                Yes                Partial               Partial                No                  No
                                    (16) Work          (27) Initial version   (38) Initial        (49) Corporate
                                    breakdown          of corporate           version of          Enterprise
                                    structure and      Enterprise             corporate           Architecture and
                                    schedule to        Architecture           Enterprise          sequencing plan
                                    develop            describing the         Architecture        are aligned with
                                    Enterprise         enterprise in          captures            subordinate
                                    Architecture       terms of               performance,        architectures.
                                    exist.             performance,           business, data,
                                                       business, data,        services,
                                                       services,              technology, and
                                                       technology, and        security views.
                                                       security is being
                                                       developed.
                                           No                  Yes                   No                  N/A
                                    (17) Enterprise    (28) One or more       (39) One or         (50) All segment
                                    Architecture       segment and/or         more segment        and/or federated
                                    segments,          federation             and/or              architectures exist
  Attribute 3:
                                    federation         member                 federation          and are
Demonstrates
                                    members,           architectures is       member              horizontally and
Satisfaction of
                                    and/or extended    being developed.       architectures       vertically
 Commitment
                                    members have                              exists and is       integrated.
                                    been identified                           being
                                    and prioritized.                          implemented.
                                           Yes                 No                    No                   No
                                                       (29) Architecture                          (51) Corporate
                                                       products are                               and subordinate
                                                       being developed                            architectures are
                                                       according to the                           extended to align
                                                       Enterprise                                 with external
                                                       Architecture                               partner
                                                       content                                    architectures.
                                                       framework.
                                                               No                                        N/A
                                                       (30) Architecture
                                                       products are
                                                       being developed
                                                       according to a
                                                       defined
                                                       Enterprise
                                                       Architecture
                                                       methodology.
                                                               No
                                                       (31) Architecture
                                                       products are
                                                       being developed
                                                       using Enterprise
                                                       Architecture tools.
                                                               No



                                                                 14
Table 4 below depicts our assessment of Attribute 4: Verifies Satisfaction of
Commitment. These are the efforts and activities to verify, via quantitative and
qualitative measurement, that the function, initiative, or program has been
satisfactorily performed.
Table 4: Assessment of the GPO’s Efforts against GAO’s Framework – Attribute 4
                    Stage 1:         Stage 2:          Stage 3:        Stage 4:             Stage 5:          Stage 6:
                 Establishing      Creating the      Developing       Completing        Expanding and      Continuously
                   Enterprise      management           initial      and using an         evolving the     improving the
                 Architecture     foundation for      Enterprise         initial           Enterprise        Enterprise
                  institutional     Enterprise       Architecture     Enterprise       Architecture and   Architecture and
  Attribute
                 commitment        Architecture        versions      Architecture          its use for       its use to
                 and direction     development                        version for         institutional       achieve
                                     and use                           targeted         transformation       corporate
                                                                        results                             optimization

                (8) Enterprise    (18) Program       (32)           (40) Enterprise    (52) Enterprise    (58) Enterprise
                Architecture      office readiness   Architecture   Architecture       Architecture       Architecture
                performance       is measured and    development    product quality    products and       quality and
                and               reported.          progress is    is measured and    management         results
                accountability                       measured and   reported.          processes are      measurement
                framework is                         reported.                         subject to         methods are
                established.                                                           independent        continuously
                                                                                       assessment.        improved.
                      No                No                No               No                  No                 No
                                                                    (41) Enterprise                       (59) Enterprise
                                                                    Architecture                          Architecture
                                                                    results and                           continuous
                                                                    outcomes are                          improvement
                                                                    measured and                          efforts reflect the
                                                                    reported.                             results of external
                                                                                                          assessments.
 Attribute 4:
  Verifies                                                                 No                                     No
Satisfaction                                                        (42) Investment
      of                                                            compliance with
Commitment                                                          corporate and
                                                                    subordinate
                                                                    architectures is
                                                                    measured and
                                                                    reported.
                                                                           No
                                                                    (43)
                                                                    Subordinate
                                                                    architecture
                                                                    alignment with
                                                                    the corporate
                                                                    Enterprise
                                                                    Architecture is
                                                                    measured and
                                                                    reported.
                                                                          N/A



See appendix A for detailed comments related to each core element.




                                                           15
Finding 2: FDsys

FDsys is an important aspect of GPO. It provides public access to Federal
Government information at no charge through its FDsys. FDsys, formerly GPO
Access, provides electronic access to information products produced by the
Federal Government. The information provided on the FDsys site is the official
published version. The collection includes publications from Congress and
Federal agencies that are submitted to GPO in digital form, gathered from
Federal Government Web sites, and created by scanning previously printed
publications. Some of the materials included are:

   •   Budget of the United States Government
   •   Code of Federal Regulations
   •   Congressional Bills and Public and Private Laws
   •   Congressional Documents, Reports, Hearings and Record
   •   Economic Indicators and Report of the President
   •   Federal Register
   •   GAO Reports and Comptroller General Decisions
   •   Public Papers of the Presidents of the United States
   •   United States Code

In fiscal year 2012, FDsys was funded for development at approximately $4
million. Operational support was funded at approximately $1.4 million. FDSys is
not developed within a subordinate architecture approach, therefore all
Enterprise Architecture development and maintenance should come from the
GPO Enterprise Architecture.

GPO’s Office of Programs, Strategy and Technology is responsible for the
management, ongoing development, and support of FDsys. GPO”s Enterprise
Architecture Program Office is not responsible for FDsys architecture. Therefore,
we assessed GPO’s efforts related to FDsys against GAO’s Framework.

We found similar results with the architecture maturity level of FDsys. For FDsys,
GPO completed or partially completed 12 of the 53 applicable core elements. As
a result, Enterprise Architecture for FDsys has not yet evolved to support
transformation or optimization. Table 5 below shows completed and partially
completed core elements.




                                        16
Table 5: FDsys Completed or Partially Completed Core Elements
                    Stage 1:           Stage 2:              Stage 3:               Stage 4:            Stage 5:         Stage 6:
                 Establishing        Creating the        Developing initial        Completing       Expanding and     Continuously
                   Enterprise        management             Enterprise            and using an        evolving the    improving the
                 Architecture       foundation for         Architecture               initial          Enterprise       Enterprise
  Attribute       institutional       Enterprise             versions              Enterprise         Architecture     Architecture
                 commitment          Architecture                                 Architecture      and its use for   and its use to
                 and direction       development                                   version for        institutional      achieve
                                       and use                                      targeted        transformation      corporate
                                                                                     results                           optimization
                (1) Written and                         (19) Organization         (35) Enterprise
                approved                                business owner and        Architecture is
                organization                            CXO                       integral to the
                policy exists for                       representatives are       execution of
 Attribute 1:
                Enterprise                              actively engaged in       other
Demonstrates
                Architecture                            architecture              institutional
Commitment
                development,                            development.              management
                maintenance,                            (Complete)                disciplines.
                and use.                                                          (Complete)
                (Complete)
                (5) Chief           (10) Enterprise     (25) Enterprise
                architect exists.   Architecture        Architecture -related
                                    program office(s)   risks are proactively
 Attribute 2:   (7) Enterprise      exists.             identified, reported,
  Provides      Architecture        (Complete)          and mitigated.
Capability to   framework(s) is                         (Partial)
    Meet        adopted.
Commitment      (Complete)




                                    (15) Enterprise     (26) Initial versions     (37) Initial
                                    Architecture        of corporate “as-is”      versions of
                                    program             and “to-be”               corporate “as-
                                    management          Enterprise                is” and “to-be”
                                    plan exists and     Architecture and          Enterprise
                                    reflects            sequencing plan are       Architecture
                                    relationships       being developed.          and
                                    with other          (Partial)                 sequencing
                                    management                                    plan exist.
 Attribute 3:
                                    disciplines.        (27) Initial version of   (Partial)
Demonstrates
                                    (Complete)          corporate Enterprise
 Satisfaction
                                                        Architecture
      of
                                    (17) Enterprise     describing the
Commitment
                                    Architecture        enterprise in terms
                                    segments,           of performance,
                                    federation          business, data,
                                    members, and/or     services,
                                    extended            technology, and
                                    members have        security is being
                                    been identified     developed.
                                    and prioritized.    (Complete)
                                    (Complete)
 Attribute 4:
  Verifies
Satisfaction
      of
Commitment


The difference between GPO’s enterprise-wide Enterprise Architecture and
FDsys resulted from GPO not providing us a business case for FDsys
development for FY 2012. Therefore, the criteria for the existence of
methodologies and tools to determine investment compliance with corporate and
subordinate architectures, the 23rd core element, were not satisfied.




                                                                 17
Recommendations
To enhance the utility and maturity of GPO’s Enterprise Architecture, we
recommend that the:

   1. CIO identify, develop, and implement a framework to evolve GPO’s
      Enterprise Architecture and its use to support GPO’s transformation and
      optimization.

   2. CIO reevaluate, modify if necessary, GPO Directive 705.31, “GPO
      Enterprise Architecture Policy” and reestablish and convene the Architect
      Review Board.

   3. Chief Technology Officer coordinate with the CIO to ensure the FDsys
      architecture is aligned with GPO’s Enterprise Architecture.

Management’s Response

The CIO concurs with the recommendations. GPO will focus on complying with
the spirit of the GAO maturity model as authority allows. Directive 705.31 must
be updated to reflect a revised “right-sized” EA approach which takes into
account cross-governmental EA best practices such as those set forth by GAO
and OMB’s Federal Enterprise Architecture Program Management Office but
does not stipulate full compliance.

Currently, FDsys technologies are aligned with the EA Technical Reference
Model. However, an improved coordination to achieve more detailed design
documentation would be helpful towards improving the baseline architectures.

The complete text of management’s response is in Appendix C.

Evaluation of Management’s Response

Management’s planned actions are responsive to the recommendations. The
recommendations are resolved but will remain open for reporting purposes
pending our review and verification of the implemented process.




                                       18
Appendix A - Assessment of the GPO’s Efforts against GAO’s
Framework (Enterprise-Wide)

      Stage        Core Element       Satisfied?                Comments
Stage 1:        (1) Written and                    GPO Directive 705.31, GPO
Establishing    approved                           Enterprise Architecture Policy,
Enterprise      organization                       issued on December 8, 2008
Architecture    policy exists for
institutional   Enterprise               Yes
commitment      Architecture
and direction   development,
                maintenance, and
                use.
                (2) Executive                      ARB is not an active board.
                committee
                representing the
                enterprise exists
                                         No
                and is responsible
                and accountable
                for Enterprise
                Architecture.
                (3) Executive                      ARB is not an active board.
                committee is                       Meetings are not documented in
                taking proactive                   the SharePoint website
                steps to address         No
                Enterprise
                Architecture
                cultural barriers.
                (4) Executive                      No evidence of training.
                committee
                members are
                trained in
                                         No
                Enterprise
                Architecture
                principles and
                concepts.
                (5) Chief architect                While the position existed, the Chief
                exists.                            Architect position description does
                                         Yes
                                                   not reflect the OPM defined 2210
                                                   job series Enterprise Architect.




                                         19
Appendix A - Assessment of the GPO’s Efforts against GAO’s
Framework (Enterprise-Wide)

     Stage          Core Element      Satisfied?                Comments
                 (6) Enterprise                    GPO Directive 705.31, GPO
                 Architecture                      Enterprise Architecture Policy,
                 purpose is clearly                requires a Balance Score Card
                 stated.                 No        strategic performance management
                                                   tool. A Balance Score Card is not
                                                   being applied to the Enterprise
                                                   Architecture program.
                 (7) Enterprise                    The current Enterprise Architecture
                 Architecture                      framework is a variation of the
                 framework(s) is                   Federal Enterprise Architecture
                 adopted.                          Framework. A distinct Business
                                         Yes       Architecture, Application
                                                   Architecture, Data Architecture, and
                                                   Technical Architecture are being
                                                   pursued.
                 (8) Enterprise                    The Enterprise Architecture
                 Architecture                      program has not embarked on
                 performance and                   System Audits or a recent
                                         No
                 accountability                    comprehensive self evaluation of
                 framework is                      maturity.
                 established.
Stage 2:         (9) Enterprise                    Enterprise Architecture is not
Creating the     Architecture                      viewed as a capital asset. GPO
management       budgetary needs         No        could not provide cost estimates
foundation for   are justified and                 from Enterprise Architecture.
Enterprise       funded.
Architecture     (10) Enterprise                   The Enterprise Architecture
development      Architecture                      Program Office is responsible for
and use          program office(s)                 the daily administration,
                                         Yes
                 exists.                           implementation and management
                                                   of the GPO Enterprise Architecture
                                                   program.
                 (11) Key program                  We were told the approach
                 office leadership                 prescribed in the GAO Framework
                 positions are           No        does not apply to an agency with
                 filled.                           GPO's size and available resources.




                                         20
Appendix A - Assessment of the GPO’s Efforts against GAO’s
Framework (Enterprise-Wide)

   Stage        Core Element        Satisfied?                Comments
             (12) Program                        Current staffing does not consists of
             office human              No        Enterprise Architects.
             capital plans exist.
             (13) Enterprise                     GPO could not demonstrate a
             Architecture                        consistent, complete, aligned,
             development and                     integrated, and usable artifact.
                                       No
             maintenance
             methodology
             exists.
             (14) Automated                      We were told much of what is in the
             Enterprise                          repository was unfinished and not
             Architecture tools                  published. The information is not
             exist.                    No        assimilated to support
                                                 organizational transformation by
                                                 creating a holistic view of the “as-is”
                                                 and “to-be” state of GPO.
             (15) Enterprise                     Mission, Vision, Goals and
             Architecture                        Objectives are stated.
             program
             management plan
             exists and reflects       Yes
             relationships with
             other
             management
             disciplines.
             (16) Work                           GPO could not demonstrate a work
             breakdown                           breakdown structure was
             structure and                       developed.
             schedule to               No
             develop
             Enterprise
             Architecture exist.




                                       21
Appendix A - Assessment of the GPO’s Efforts against GAO’s
Framework (Enterprise-Wide)

    Stage       Core Element       Satisfied?                 Comments
             (17) Enterprise                    Enterprise Architecture Sequencing
             Architecture                       Plans dated April 2012 shows
             segments,                          identification and prioritization of
             federation               Yes       key application gaps and proposed
             members, and/or                    high level solutions.
             extended
             members have
             been identified
             and prioritized.
             (18) Program                       Measures are not tracked.
             office readiness is
                                      No
             measured and
             reported
Stage 3:     (19) Organization                  Senior managers are briefed.
Developing   business owner
initial EA   and CXO
versions     representatives
                                      Yes
             are actively
             engaged in
             architecture
             development.
             (20) Enterprise                    Current staffing consists of
             Architecture                       Database Administrators.
             human capital            No
             plans are being
             implemented.
             (21) Program                       We were told that Database
             office contractor                  Administrators roles are to provide
                                      No
             support needs are                  database administration and
             being met.                         database architecture support.
             (22) Program                       Enterprise Architecture training is
             office staff are                   not conducted.
             trained in
             Enterprise
                                      No
             Architecture
             framework,
             methodology, and
             tools.


                                      22
Appendix A - Assessment of the GPO’s Efforts against GAO’s
Framework (Enterprise-Wide)

   Stage        Core Element      Satisfied?               Comments
             (23)                              Methodologies and tools exist to
             Methodologies                     determine investment compliance.
             and tools exist to
             determine
             investment              Yes
             compliance with
             corporate and
             subordinate
             architectures.
             (24)                              GPO does not employ subordinate
             Methodologies                     architectures.
             and tools exist to
             determine
             subordinate
                                     N/A
             architecture
             alignment with
             the corporate
             Enterprise
             Architecture.
             (25) Enterprise                   One system was identified to have
             Architecture -                    risk identification through an
             related risks are                 alternatives analysis.
             proactively           Partial
             identified,
             reported, and
             mitigated.
             (26) Initial                      We identified an Enterprise
             versions of                       Architecture Sequencing Plan, TRM,
             corporate “as-is”                 Application Inventory, and a Human
             and “to-be”                       Capital as-is Business Process
             Enterprise            Partial     diagram.
             Architecture and
             sequencing plan
             are being
             developed.




                                     23
Appendix A - Assessment of the GPO’s Efforts against GAO’s
Framework (Enterprise-Wide)

   Stage        Core Element      Satisfied?              Comments
             (27) Initial version            We identified sequencing plans for
             of corporate                    conceptual models for the business
             Enterprise                      layer, information layer, application
             Architecture                    layer, and technology layer.
             describing the
             enterprise in
             terms of                Yes
             performance,
             business, data,
             services,
             technology, and
             security is being
             developed.
             (28) One or more                GPO could not demonstrate
             segment and/or                  segment architectures is being
             federation                      developed.
                                     No
             member
             architectures is
             being developed.
             (29) Architecture               GPO could not demonstrate
             products are being              products are being developed
             developed                       according to the EA content
             according to the        No      framework.
             EA content
             framework.
             (30) Architecture                GPO could not demonstrate
             products are being               products are being developed
             developed                        according to a defined Enterprise
             according to a          No       Architecture methodology.
             defined Enterprise
             Architecture
             methodology.
             (31) Architecture                The sequencing plan is not updated
             products are being               for the Composition System
             developed using         No       Replacement.
             Enterprise
             Architecture tools



                                     24
Appendix A - Assessment of the GPO’s Efforts against GAO’s
Framework (Enterprise-Wide)

     Stage            Core Element      Satisfied?                Comments
                   (32) Architecture                 GPO could not demonstrate
                   development                       architecture development progress
                   progress is             No        is measured and reported.
                   measured and
                   reported.
Stage 4:           (33) Executive                    GPO could not demonstrate it has
Completing and     committee has                     an approved initial version of
using an initial   approved the                      Enterprise Architecture.
Enterprise         initial version of      No
Architecture       corporate
version for        Enterprise
targeted results   Architecture.
                   (34) Key                          GPO does not employ subordinate
                   stakeholders have                 architectures.
                   approved the
                                           N/A
                   current version of
                   subordinate
                   architectures.
                   (35) Enterprise                   The management disciplines
                   Architecture is                   Enterprise Architecture is
                   integral to the                   supporting per the Appendix of
                   execution of other                projects are as follows: Information
                   institutional                     Technology and Systems,
                   management              Yes       Acquisitions, Office of the Chief
                   disciplines.                      Technology Officer, Plant
                                                     Operations, Library Services &
                                                     Content Management, Human
                                                     Capital, Finance & Administration,
                                                     Publication & Information Sales.
                   (36) Program                      GPO could not demonstrate human
                   office human                      capital needs are met through its
                   capital needs are                 use Database Administrators
                   met.                    No        instead of Enterprise Architects.




                                           25
Appendix A - Assessment of the GPO’s Efforts against GAO’s
Framework (Enterprise-Wide)

   Stage        Core Element      Satisfied?              Comments
             (37) Initial                    GPO uses IBM System Architect
             versions of                     software for its sequencing plan and
             corporate “as-is”               application inventory.
             and “to-be”
                                   Partial
             Enterprise
             Architecture and
             sequencing plan
             exist.
             (38) Initial version            GPO could not demonstrate
             of corporate                    Enterprise Architecture captures
             Enterprise                      performance, business, data,
             Architecture                    services, technology, and security
             captures                        views
                                     No
             performance,
             business, data,
             services,
             technology, and
             security views
             (39) One or more                Chief Architect is not listed
             segment and/or                  attending the SIC committee.
             federation
             member                  No
             architectures
             exists and is being
             implemented.
             (40) Enterprise                 GPO could not demonstrate quality
             Architecture                    metrics and reporting.
             product quality is      No
             measured and
             reported.
             (41) Enterprise                 GPO could not demonstrate that
             Architecture                    results and outcomes are measured
             results and                     and reported.
             outcomes are            No
             measured and
             reported.




                                    26
Appendix A - Assessment of the GPO’s Efforts against GAO’s
Framework (Enterprise-Wide)

     Stage           Core Element       Satisfied?                  Comments
                  (42) Investment                    While we identified a business case
                  compliance with                    for Library Services and Content
                  corporate and                      Management from 2010 and a case
                  subordinate              No        for Official Journals of Government
                  architectures is                   from 2009, GPO could not
                  measured and                       demonstrate any current
                  reported.                          compliance.
                  (43) Subordinate                   GPO does not employ subordinate
                  architecture                       architectures.
                  alignment with
                                           N/A
                  the corporate EA
                  is measured and
                  reported.
Stage 5:          (44) Organization                  A current version of the corporate
Expanding and     head has                           Enterprise Architecture is not
evolving the      approved current                   approved.
Enterprise        version of the           No
Architecture      corporate
and its use for   Enterprise
institutional     Architecture.
transformation    (45) Organization                  While in GPO’s 2010 self
                  component heads                    assessment it was noted that most
                  or segment                         segment owners have approved
                  owners have                        their segment architectures, GPO
                  approved version         No        could not demonstrate these
                  of their respective                actions were current.
                  subordinate
                  architectures.




                                           27
Appendix A - Assessment of the GPO’s Efforts against GAO’s
Framework (Enterprise-Wide)

   Stage        Core Element       Satisfied?                Comments
             (46) Integrated                    The Strategic Investment
             repository tools                   Committee meeting minutes
             and common                         revealed that items under
             Enterprise                         consideration include an
             Architecture                       Enterprise Architecture tool suite.
             framework and                      They believe the software will allow
             methodology are          No        a process flow between project
             used across the                    scoping, business analyses,
             enterprise.                        requirements, design, build, and
                                                deploy. It was stated that GPO
                                                does not currently have a
                                                requirements management tool.
             (47) Corporate                     GPO does not employ subordinate
             and subordinate                    architectures.
             architecture
             program offices
                                      N/A
             operate as a single
             virtual office that
             shares resources
             enterprise wide.
             (48) Corporate                     The Sequencing Plan Appendix E list
             Enterprise                         projects for the following BU's:
             Architecture and                   Information Technology and
             sequencing plan                    Systems, Acquisitions, Office of the
             are enterprise                     Chief Technology Officer, Plant
             wide in scope.                     Operations, Library Services &
                                      No
                                                Content Management, Human
                                                Capital, Finance & Administration,
                                                Publication & Information Sales.
                                                We do not believe this directly
                                                relates to the “as-is” and “to-be”
                                                architectures.
             (49) Corporate                     GPO does not employ subordinate
             Enterprise                         architectures.
             Architecture and
             sequencing plan          N/A
             are aligned with
             subordinate
             architectures.

                                      28
Appendix A - Assessment of the GPO’s Efforts against GAO’s
Framework (Enterprise-Wide)

     Stage          Core Element       Satisfied?                Comments
                 (50) All segment                   GPO could not demonstrate
                 and/or federated                   architecture integration.
                 architectures exist
                 and are                  No
                 horizontally and
                 vertically
                 integrated.
                 (51) Corporate                     GPO does not employ subordinate
                 and subordinate                    architectures.
                 architectures are
                 extended to align        N/A
                 with external
                 partner
                 architectures.
                 (52) Enterprise                    An independent assessment has not
                 Architecture                       been conducted since the GAO’s
                 products and                       audit in 2004.
                 management
                                          No
                 processes are
                 subject to
                 independent
                 assessment.
Stage 6:         (53) Enterprise                    GPO could not demonstrate
Continuously     Architecture is                    Enterprise Architecture is used by
improving the    used by executive                  executive leadership to inform
Enterprise       leadership to                      organization strategic planning and
Architecture     inform                   No        policy formulation.
and its use to   organization
achieve          strategic planning
corporate        and policy
optimization     formulation.
                 (54) Enterprise                    GPO could not demonstrate human
                 Architecture                       capital capabilities are continuously
                 human capital                      improved.
                                          No
                 capabilities are
                 continuously
                 improved.




                                          29
Appendix A - Assessment of the GPO’s Efforts against GAO’s
Framework (Enterprise-Wide)

   Stage        Core Element       Satisfied?               Comments
             (55) Enterprise                    GPO could not demonstrate
             Architecture                       methodology and tools were
             methodologies                      continuously improved.
                                      No
             and tools are
             continuously
             improved.
             (56) Enterprise                    GPO could not demonstrate
             Architecture                       external assessments were
             management                         conducted.
             processes are
             continuously             No
             improved and
             reflect the results
             of external
             assessments.
             (57) Enterprise                    Since 2010, GPO could not
             Architecture                       demonstrate continuous
             products are                       improvement.
                                      No
             continuously
             improved and
             updated.
             (58) Enterprise                    GPO could not demonstrate
             Architecture                       Enterprise Architecture quality
             quality and results                measurements are conducted.
             measurement              No
             methods are
             continuously
             improved.
             (59) Enterprise                    GPO could not demonstrate
             Architecture                       external assessments were
             continuous                         conducted.
             improvement              No
             efforts reflect the
             results of external
             assessments.




                                      30
Appendix B - Objectives, Scope, and Methodology

We performed fieldwork from June 2012 through August 2012 at the GPO
Central Office in Washington, D.C. We conducted the audit in accordance with
generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence that
will provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Objectives
This audit was conducted to determine to what extend does GPO have
assurance that its Enterprise Architecture program is used to guide and constrain
ongoing development and support of GPO’s strategic transformation.

Scope and Methodology
We reviewed GAO’s framework which organizes architecture management best
practices into stages of maturity. This framework is based on A Practical Guide to
Federal Enterprise Architecture, published by the federal Chief Information
Officer Council. We analyzed GPO’s Enterprise Architecture plans and products,
including program management and other plans, key architecture principles,
work breakdown structures and corresponding milestones, Enterprise
Architecture Board charters and meeting minutes, and Enterprise Architecture
status reports. We also analyzed relevant policies and procedures, including
GPO’s Enterprise Architecture policy and the Information Technology Life Cycle
Management policies. We reviewed architecture documents related to the “as is”
and “to be” architectures. We interviewed the chief architect and his staff.

We compared our analyses with the EA management maturity framework
practices to determine the extent to which GPO was employing such
management practices. We also compared GAO’s framework with the ongoing
efforts related to FDsys.

Management Controls Reviewed
We limited our assessment of internal controls to those related to the Enterprise
Architecture Program Office. We assess compliance with the Government
Accountability Office Enterprise Architecture Maturity Model 2.0. Based on our
review we made recommendations to strengthen and improve the controls
discussed in the Results section of this report.




                                        31
Computer-generated data
To assess the reliability of Enterprise Architecture data we talked to agency
officials. We interview the Chief Architect to determine if the data from the
Enterprise Architecture system was reliable. The purpose of the EA data as
defined by the Chief Architect is collaborating and representing enterprise
architecture, technical information to management in GPO. The scope of the
audit was not for the technical quality of the data, but the existence of the data.
We also compared common data elements for consistency. We determined that
the data were sufficiently reliable for the purpose of this report.




                                        32
Appendix C – Management’s Response____________________________________




                                  33
Appendix C – Management’s Response____________________________________




                                  34
Appendix C – Management’s Response____________________________________




                                  35
Appendix C – Management’s Response____________________________________




                                  36
Appendix C – Management’s Response____________________________________




                                  37
Appendix C – Management’s Response____________________________________




                                  38
Appendix D - Status of Recommendations

Recommendation Resolved       Unresolved      Open/ECD*        Closed
      1           X                         March 31, 2013
      2           X                        December 31, 2012
      3           X                        February 27, 2013

*Estimated Completion Date.




                                  39
Appendix E - Report Distribution

Acting Public Printer
Assistant Public Printer, Operations
General Counsel




                                       40
Major Contributors to the Report

Daniel Rose, Lead Information Technology Specialist




                                     41
